HHS/OIG-Audit-"Effect of Staffing on Quality of Care at Nursing Facilities - Dublinair
Health Care and Rehabilitation Center"(A-04-04-04003)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Effect of Staffing on Quality of Care at Nursing Facilities - Dublinair Health Care
and Rehabilitation Center," (A-04-04-04003)
April 12, 2004
Complete
Text of Report is available in PDF format (847 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Based on our review of 100 current direct care employees, we found that Dublinair complied
with the specific Federal and State staffing laws and regulations that we reviewed.  Further,
Dublinair complied with the State background check requirement for all current direct care
employees.  However, we noted differences in the direct care hours per resident per
day that we calculated and the hours of care reported in the Nursing Home Compare web site.  We
recommended that Dublinair establish a control to independently confirm the validity of the
direct care hours that are provided to the Georgia State Survey Agency for input into the
Nursing Home Compare web site.  The Dublinair Administrator agreed with our finding
and recommendation and stated that in the future the number reported to the State Survey
Agency will be taken directly from the facilitys computerized payroll records and that the
records will be produced at the time of the survey and maintained in the facilitys records
for future reference.